 U.S. Department of Agriculture
  Office of Inspector General
        Midwest Region
          Audit Report



 Special Supplemental Nutrition Program
   For Women, Infants, and Children—
Nutrition Services and Administrative Costs
                   In Ohio




                   Report No.
                   27004-0004-Ch
                   JANUARY 2001
                       EXECUTIVE SUMMARY
SPECIAL SUPPLEMENTAL NUTRITION PROGRAM FOR WOMEN, INFANTS, AND
     CHILDREN-NUTRITION SERVICES AND ADMINISTRATIVE COSTS
                            IN OHIO

                          REPORT NO. 27004-0004-Ch


                                    This report presents the results of our audit of
     RESULTS IN BRIEF               administrative and accounting controls over
                                    nutrition services and administrative (NSA)
                                    costs claimed for Federal reimbursement by the
         Ohio Department of Health, the State agency responsible for administering
         the Special Supplemental Nutrition Program for Women, Infants, and
         Children (WIC) in Ohio. The purpose of the audit was to evaluate the
         adequacy of administrative and accounting controls over WIC expenditures
         and to determine whether NSA expenditures submitted were accurate and
         allowable.

           Our reviews at the Food and Nutrition Service Regional Office (FNSRO) in
           Chicago, the Ohio Department of Health, and four local agencies, disclosed
           that the State agency did not adequately control fiscal year (FY) 1999 WIC
           Program grant funds as well as prior year grant funds. We found that during
           FY 1999, the State agency has advanced funds to the local agencies based
           on budgets rather than actual expenditures. As a result, local agencies
           maintained excessive cash on hand of up to         $1.1 million. This problem
           has existed since FY 1995.

           The State agency’s lack of control over prior year grant funds has resulted in
           a cash balance from FY’s 1996 through 1998 totaling                 $283,638
           remaining in the State agency’s cash account, rather than being returned to
           FNS. This occurred because of a lack of communication between the State
           agency’s Grants Management staff and Cash Management staff. A
           preliminary review of the prior years’ cash balance by the Grants
           Management staff, initiated as the result of our audit, has indicated that the
           Cash Management staff has improperly carried over grant funds from one
           grant year to the next, made inaccurate accounting entries to the WIC grant
           fund, and allowed excess funds received from local agencies to remain in the
           State agency’s cash account.

                                        We recommend that the Food and Nutrition
 KEY RECOMMENDATIONS                    Service (FNS) require the State agency to
                                        correct its procedures for advancing grant funds
                                        to the local agencies by requiring it to offset the

USDA/OIG-A/27004-0004-Ch                                                           Page i
           advances against incoming claims each month in order to ensure that the
           funding levels reflect the actual expenditures reported by the local agency, to
           open communication between the Grants Management and Cash
           Management staffs by implementing procedures that require the immediate
           return of any unused funds from prior year grants, and to return the unspent
           funds from prior fiscal years totaling about $283,700.

                                       In its December 6, 2000, written response to the
    AGENCY RESPONSE                    draft report, the FNS Regional Office agreed
                                       with the findings and recommendations
                                       contained in the report and provided evidence
        that the $283,638 cited in Recommendation No. 2 had been returned to
        FNS. We have incorporated applicable portions of the FNS response along
        with our position in the Findings and Recommendations section of the report.
         The agency’s response is included as exhibit B of the report.

                                        Based on the corrective actions planned and
        OIG POSITION                    already taken, we accept FNS’ management
                                        decisions on all three recommendations.




USDA/OIG-A/27004-0004-Ch                                                          Page ii
                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY............................................................................................................i
   RESULTS IN BRIEF ...............................................................................................................i
   KEY RECOMMENDATIONS .................................................................................................i
   AGENCY RESPONSE...........................................................................................................ii
   OIG POSITION.........................................................................................................................ii
TABLE OF CONTENTS ...........................................................................................................iii
INTRODUCTION.........................................................................................................................1
   BACKGROUND......................................................................................................................1
   OBJECTIVES..........................................................................................................................2
   SCOPE .....................................................................................................................................2
   METHODOLOGY ....................................................................................................................2
FINDINGS AND RECOMMENDATIONS................................................................................4
   CHAPTER 1.............................................................................................................................4
   THE STATE AGENCY DID NOT ADEQUATELY CONTROL WIC PROGRAM
   GRANT FUNDS ......................................................................................................................4
   FINDING NO. 1 ........................................................................................................................4
   RECOMMENDATION NO. 1 .................................................................................................7
   FINDING NO. 2 ........................................................................................................................7
   RECOMMENDATION NO. 2 .................................................................................................9
   RECOMMENDATION NO. 3 .............................................................................................. 10
GENERAL COMMENTS ........................................................................................................ 11
   EXHIBIT A – SUMMARY OF MONETARY RESULTS.................................................. 12
   EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT....................................... 13




USDA/OIG-A/27004-0004-Ch                                                                                                            Page iii
                                             INTRODUCTION

                                           The Special Supplemental Nutrition Program for
              BACKGROUND                   Women, Infants, and Children (WIC) provides
                                           food, nutrition counseling, and access to health
                                           services to low-income women, infants and
                children. Established as a pilot program in 1972 and made permanent in
                1974, WIC is administered at the Federal level by the Food and Nutrition
                Service (FNS). WIC is not an entitlement program as Congress does not set
                aside funds to allow every eligible individual to participate in the program.
                WIC is a Federal grant program for which Congress authorizes a specific
                amount of funds each year.

                    WIC Program regulations 1 state that “each State agency’s funds will be
                    provided by means of a letter of credit unless another funding method is
                    specified by the Department. State agencies shall use funds to cover those
                    allowable and documented program costs, which are incurred by the State
                    agency and participating local agencies within their jurisdictions.” The
                    regulations also state that “the State agency shall ensure that each local
                    agency has funds to cover immediate disbursement needs, and the State
                    agency shall offset the advances made against incoming claims each month
                    to ensure the funding levels reflect the actual expenditures reported by the
                    local agency.”

                    The two kinds of allowable costs under the program are “food costs” and
                    “nutrition services and administration (NSA) costs.” NSA costs include the
                    direct and indirect expenses of: (1) Nutrition education and breastfeeding
                    promotion and support; (2) program certification procedures; (3) outreach
                    services; (4) administering the food delivery system; (5) translators for
                    materials and interpreters; (6) fair hearings; (7) monitoring and review of
                    program operations; (8) screening for drug and other harmful substance use
                    and making referrals for counseling and treatment services; and         (9)
                    breastfeeding aids.

                    The WIC Program is administered in Ohio by the Ohio Department of Health
                    and 76 local agencies. The local agencies provide program benefits through
                    clinics located in all of Ohio’s 88 counties. The State‘s total NSA
                    expenditures for Fiscal Year (FY) 1999 were about         $35.8 million. The
                    State agency draws down funds from the U.S. Treasury through a letter of
                    credit. The local agencies receive their operating funds through advances
1
    Title 7 Code of Federal Regulations (CFR), Section 246.16


USDA/OIG-A/27004-0004-Ch                                                                Page 1
           from the State agency. The State agency’s portion of the NSA expenditures
           for FY 1999 was about $4.6 million, while the local agencies’ portion was
           about $31.2 million.

                                      The objectives of the audit were to:          (1)
        OBJECTIVES                    Evaluate the adequacy of FNS’ and the State
                                      agency’s administrative and accounting controls
                                      over WIC expenditures, including costs incurred
         by local agencies; (2) determine whether NSA expenditures submitted for
         Federal reimbursement were both accurate and allowable; (3) determine
         whether accounting and administrative controls were adequate to ensure that
         administrative costs included provisions for nutrition education; and (4) to
         determine if at least one-sixth of the NSA costs were for nutrition education
         related expenses.

                                          Audit work was performed at the FNS Midwest
            SCOPE                         Regional Office, Chicago, Illinois; the Ohio State
                                          Agency, Columbus, Ohio; and four judgmentally-
                                          selected local agencies located in Hamilton,
           Clark, Portage/Columbiana, and Scioto counties. These four local agencies
           received about $4.6 million of the total $35.8 million of NSA funding in FY
           1999. The audit period was FY 1999. It also included FY 1996 through 1998
           as it related only to grant funds on hand at the State agency. We performed
           the fieldwork from May through July 2000.

           We conducted this audit in accordance with generally accepted government
           auditing standards.

                                      We reviewed the applicable program policies,
      METHODOLOGY                     procedures, and regulations at the FNSRO. In
                                      addition, we reviewed recent single audit
                                      reports for the State agency and the local
         agencies that were selected for review, as well as recent management
         evaluations conducted of the State agency by FNSRO, and conducted by the
         State agency of the local agencies selected for review.

           At the State agency, we performed an analysis of the letter of credit
           drawdowns in order to determine if the State agency minimized the time
           elapsing between receipt of Federal funds and the disbursements of these
           funds for program costs. We reviewed the State agency’s Cash Daily
           Reports to determine if the State agency maintained excessive cash
           balances on hand for the current and prior fiscal years. In addition, we
           compared the local agency’s expenditures reported to the State agency on
           their monthly Certified Expenditure Reports with the amount of funds
           advanced by the State agency, as detailed on the Monthly Detailed
           Disbursement Report from the State agency’s accounting system, to


USDA/OIG-A/27004-0004-Ch                                                            Page 2
           determine if the local agencies’ funding levels reflect their actual
           expenditures.

           We selected samples of State and local agency NSA expenditures and
           traced them back to the agency’s supporting documents such as payroll
           records, receipts, invoices, and purchase orders in order to determine if the
           expenditures reported were accurate and allowable. We also conducted
           interviews with FNS, State agency, and local agency officials, and other
           individuals as deemed necessary.




USDA/OIG-A/27004-0004-Ch                                                        Page 3
                   FINDINGS AND RECOMMENDATIONS

                                   THE STATE AGENCY DID NOT ADEQUATELY
    CHAPTER 1
                                    CONTROL WIC PROGRAM GRANT FUNDS
                   During FY 1999, the State agency advanced funds to the local agencies
                   quarterly and based the advances on their budgets rather than their actual
                   expenditures, which allowed them to maintain excessive cash on hand. Also,
                   the State agency’s lack of control over prior year grant funds has resulted in
                   unspent funds totaling about $283,700 remaining in the State agency’s bank
                   account, rather than being returned to FNS. These conditions were caused
                   by the State agency’s poor cash handling procedures, and the lack of
                   communication between their Grants Management and Cash Management
                   staffs. This lack of communication allowed the State agency to disregard
                   Federal regulations regarding the control of WIC Program grant funds. This
                   problem has existed since     FY 1995 when the State agency had to return
                   almost $537,000 in advances that it had made to local agencies in excess of
                   their needs.

                                       The State agency did not disburse funds to local
        FINDING NO. 1                  agencies based on their actual expenditures.
                                       This occurred because the State agency’s
  THE STATE AGENCY DID NOT             procedures for advancing funds to local
ADVANCE FY 1999 GRANT FUNDS agencies are inadequate to ensure that the local
TO LOCAL AGENCIES ACCORDING agencies’ funding levels reflect their actual
       TO THEIR ACTUAL                 expenditures. The State agency procedures
        EXPENDITURES                   require quarterly advances based on the local
                                       agency budgets rather than actual expenditures.
                                        The funds that are being advanced to the local
           agencies in excess of their expenditures each month should remain in the
           control of the State agency until they are needed. The State agency
           procedures encourage the State agency to transfer control of the funds from
           the State agency to the local agencies. As a result, the local agencies
           maintained excessive funds on hand of up to almost        $1.1 million.

                   WIC Program regulations 2 state “the State agency shall offset the advances
                   made against incoming claims each month to ensure that funding levels
                   reflect the actual expenditures reported by the local agency.” However, the
                   State agency’s procedures for advancing funds to the local agencies3 state

2
    7 CFR 246.16 (d)
3
    Ohio State Plan of Operations, FY 1999

USDA/OIG-A/27004-0004-Ch                                                                 Page 4
                   that “advances are initiated upon receipt of monthly financial reports based
                   on a formula which incorporates past expenditures.” Their procedures also
                   state “claims are reconciled on a monthly basis against the advance.” Other
                   State agency procedures4 state that the advances for the first 2 quarters are
                   based on budgets rather than actual expenditures, and that the last 2
                   quarterly advances are based on the budget plus obligations less cash
                   balance on hand. The State agency’s procedures are inadequate because
                   they do not include specific procedures for adjusting subsequent advances
                   based on the monthly reconciliation and therefore, do not ensure that funding
                   levels reflect actual expenditures.

                   We performed an analysis of local agency advances made by the State
                   agency. We interviewed staff in the Grants Management section at the State
                   agency and obtained their written procedures. They state that the advances
                   for the first two quarters are based on budgets rather than actual
                   expenditures, and that the last two quarterly advances are based on the
                   budget plus obligations less cash balance on hand. These procedures
                   indicate that the local agencies could be operating with a deficit at times,
                   and have excess cash at other times, contrary to the requirement in the
                   regulations for the advances to reflect actual expenditures. Therefore, we did
                   a further analysis at the local agencies to determine if either or both of these
                   conditions existed, and also to determine if advances are being made
                   according to the Grants Management staff at the State agency.

                   We looked at the funds on hand at the 4 local agencies for all 12 months of
                   FY 1999 to determine how the advances are actually being made. We
                   compared the amount of funds advanced, per the State of Ohio warrants and
                   other local agency records, with the amount of the local agency’s
                   expenditures each month, per the Certified Expenditure Reports submitted to
                   the State agency each month, in order to determine whether the local agency
                   advances reflected their actual expenditures or whether the local agency had
                   to operate with a deficit or surplus.

                   Our reviews at the four local agencies identified excessive cash on hand at
                   all four. We also found that two of the local agencies had excess funds on
                   hand at the end of the fiscal year that had to be paid back. Hamilton County
                   had almost $257,000 left over and Clark County had almost $26,000 left over
                   at the end of the fiscal year.

                   Specific details of our reviews at the local agencies follows.

                         •   The local agency in Hamilton County had excessive cash balances in
                             11 months ranging from over $107,000 to almost $1.1 million, when
                             their average monthly expenditures were approximately $205,000.

4
    Grants Administration Unit, Subgrantee Payment Formula

USDA/OIG-A/27004-0004-Ch                                                                   Page 5
               •   The local agency in Clark County had excessive cash on hand during
                   all 12 months of FY 1999 ranging from almost $20,000 to over
                   $177,000, when their average monthly expenditures were
                   approximately $43,000.

               •   The local agency in Portage/Columbiana Counties had excessive
                   cash balances for 5 months ranging from over $67,000 to over
                   $193,000, when their average monthly expenditures were
                   approximately $68,000.

               •   The local agency in Scioto County had excessive cash balances for 5
                   months ranging from over $33,000 to over $106,000, when their
                   average monthly expenditures were approximately $37,000.

           The local agencies also were forced to operate at deficits at times, but we
           determined that this was due to the unavailability of the State agency’s letter
           of credit at the beginning of the fiscal year rather than the State agency’s
           poor cash handling procedures.

           The problem with excessive local agency advances has existed since FY
           1995. The FNS Regional Office (FNSRO) identified, in an            FY 1997
           management evaluation, that the State agency made excessive advances to
           the local agencies. As a result, the State agency was required to pay back
           almost $537,000 in FY 1995 local agency advances which were in excess of
           their actual expenditures, but had never been returned. FNSRO was aware
           of problems in this area and had already recommended that the State
           agency take corrective actions; however, the agreed-to-corrective actions
           had not been implemented.

           State agency officials stated that, since the local agencies spend 95 to 100
           percent of their grant amount, their goal is to get the money out to the local
           agencies. They are not concerned with whether they have too much money
           during the year. While the State agency has corrected this problem by
           returning excessive o l cal agency advances more timely, they continue to
           advance excessive funds during the year without regard to whether the local
           agency actually needs all of the funds. The Chief of the Women, Infants, and
           Children bureau at the State agency agreed with our finding.




USDA/OIG-A/27004-0004-Ch                                                          Page 6
 RECOMMENDATION NO. 1

             Require the State agency to correct their procedures, requiring them to offset
             the advances made to local agencies against incoming claims each month in
             order to ensure the funding levels reflect the actual expenditures reported by
             the local agency.

             Agency Response

             In its December 6, 2000, response, FNS agreed with the recommendation.
             The State agency will review procedures for payments to WIC local agencies
             to ensure that advances made against incoming claims reflect actual
             expenditures reported by the local agencies. In addition, the State agency is
             in the process of implementing the Grants Management Information System
             (GMIS), a new, electronic system for the overall management of subgrants,
             which will facilitate improved monitoring of payments and expenditure
             reporting of all subgrant programs at the State agency. With the conversion
             of WIC local agencies to GMIS, the State agency will have an effective tool
             that can provide an instantaneous report of actual reported expenditures
             upon which to base subsequent payments. FNS will review the functionality
             of GMIS and the elements for payments and identify adjustments required to
             ensure that payments are not in excess of immediate disbursement needs of
             WIC local agencies. The revised procedures for quarterly payments to WIC
             local agencies will include specific procedures for adjusting advances and
             will be forwarded to FNS by January 31, 2001.

             OIG Position

             Based on the corrective action planned, we accept FNS’ management
             decision on this recommendation.

                                       The State agency has excessive funds on hand
       FINDING NO. 2                   from fiscal years 1996 through 1998. This
                                       occurred because of a lack of communication
  THE STATE AGENCY DID NOT             between the two State agency staffs that
  RETURN PRIOR YEAR GRANT              currently handle all State agency grants. Neither
            FUNDS                      staff has taken responsibility to ensure that grant
                                       funds on hand in excess of expenditures are
                                       returned for reallocation. As a result, prior year
          grant funds on hand at the State agency, totaling about $283,700, were not
          reallocated for other WIC Program needs.




USDA/OIG-A/27004-0004-Ch                                                           Page 7
                    The Federal regulations governing grants to State and local governments5
                    state that the “grantee must immediately refund to the Federal agency any
                    balance of unobligated (unencumbered) cash advanced that is not
                    authorized to be retained for use on other grants.” WIC Program regulations 6
                    state that “in any fiscal year unused amounts from a prior fiscal year that are
                    identified by the end of the first quarter of the fiscal year shall be recovered
                    and reallocated not later than the beginning of the second quarter of the fiscal
                    year. Unused amounts from a prior fiscal year that are identified after the
                    end of the first quarter of the fiscal year shall be recovered and reallocated
                    on a timely basis.”

                    Our reviews of the letter of credit drawdowns made by the State agency for
                    the FY 1999 WIC NSA grant included a review of the State agency’s Cash
                    Daily Report. This daily report shows the balance of cash on hand for each
                    grant that the State agency manages, per the State agency accounting
                    records. We noted that the Cash Daily Report, as of June 28, 2000,
                    indicates that the State agency has cash on hand from the           FY 1996
                    WIC grant of almost $140,000, the FY 1997 WIC grant of over $135,300, and
                    the FY 1998 grant of almost $8,400, for a total of almost $283,700.

                    The Grants Management staff manages the grants while the Cash
                    Management staff handles the accounting entries. The two staffs have no
                    communication and neither has been given the responsibility to ensure that
                    any balance of cash in excess of expenditures for a prior fiscal year grant is
                    returned immediately, as is required by Federal regulations. The lack of
                    communication has allowed this problem to develop and continue while
                    neither staff has performed reviews and followup actions to correct the
                    problem. Prior to the WIC grant being handled by two different State agency
                    staffs, it was handled by an exclusive WIC fiscal staff that was able to
                    maintain exclusive control over WIC grant funds and accounting entries.

                    We are unable to determine whether there are excess funds from the FY
                    1999 grant because FNSRO has not completed the closeout process yet for
                    this grant. FNSRO was unaware of the cash balances shown on the State
                    agency’s accounting records for prior fiscal years until we informed them.
                    FNSRO officials agreed that the State agency must return any leftover funds
                    from prior fiscal years that are already closed and finalized.




5
    7 CFR 3016, Subpart D—After-the-Grant Requirements, Section 3016.50 (d) (2)
6
    7 CFR 246.16 (a) (5)

USDA/OIG-A/27004-0004-Ch                                                                    Page 8
           The director of the Grants Management staff stated that they have always
           balanced the amount of their drawdowns each FY with the amount of their
           expenditures, but the Cash Management staff has improperly handled the
           accounting records for the WIC grant. As a result of our audit, the director
           reviewed prior year cash balances and found that the Cash Management
           staff had a policy to carry over any leftover cash from one fiscal year to the
           next, made inaccurate accounting entries in the WIC grant’s cash account,
           and allowed excess funds received from the local agencies to remain in the
           State agency’s cash account instead of being returned at the time of grant
           closeout.

           We asked the State agency staff about the source of these leftover funds.
           They indicated that some funds probably were returned to the State agency
           by local agencies after the grant was closed, and some funds may be the
           result of a previously canceled warrant being reissued. The State agency
           has agreed that they have responsibility to reconcile and return any excess
           funds. They also stated that when WIC had an exclusive fiscal staff, they
           were instructed by FNSRO to return unspent grant funds from prior fiscal
           years by sending a check along with a letter explaining the return. FNSRO
           instructed them not to amend their expenditure reports. FNSRO is unaware
           of any excess funds from prior fiscal years until they receive the letter and the
           check from the State agency.


 RECOMMENDATION NO. 2

           Require the State agency to return the unspent funds from prior fiscal years
           totaling $283,638.

           Agency Response

           In its December 6, 2000, response, FNS agreed with the recommendation.
           Subsequently, FNS provided us a copy of a check for the $283,638 which
           the State agency had sent to FNS.

           OIG Position

           We have reached management decision on this recommendation.




USDA/OIG-A/27004-0004-Ch                                                            Page 9
 RECOMMENDATION NO. 3

           Require the State agency to implement procedures that require the
           immediate return of any unused funds from prior year grants.

           Agency Response

           FNS agreed with the recommendation. The Ohio Office of Financial Affairs
           will revise internal procedures for the closeout of the WIC Program grant and
           preparation of the FNS 498 and FNS 227 reports. The revised WIC closeout
           procedures will specify timeframes for the return of prior year funds to FNS.
           The revised procedure will also incorporate instructions for payment of prior
           year claims. In addition, the Chiefs of the Accounting Section and the
           Federal Reporting Unit will be required to provide a quarterly summary report
           identifying receipt of unspent funds from a prior fiscal year, as reconciled to
           the Cash Monthly Report. The summary report will also document the return
           of prior year’s funds to FNS on a quarterly basis and the adjustment to the
           Chief of Financial Affairs at the end of each quarter as verification of
           compliance with Federal regulations for the return of prior year funds. These
           corrective actions were to have been implemented by December 31, 2000.

           OIG Position

           We have accepted FNS’ management decision on this recommendation.




USDA/OIG-A/27004-0004-Ch                                                        Page 10
                          GENERAL COMMENTS

Our reviews at the State and local agencies included objectives to determine whether NSA
costs include provisions for nutrition education, and whether the State agency and the local
agencies spent at least one-sixth of their NSA grant funds on nutrition education, as
required by WIC regulations. We did not find any problems in either of these areas.

In addition, we conducted interviews with State and local agency officials, and performed
reviews at the local agencies to determine whether the local agencies offered education to
WIC participants relating to the effects of drug and alcohol use by pregnant, postpartum, or
breastfeeding women on developing children, as required by Public Law 105-336, Section
203. State agency officials stated that initial assessment of potential WIC participants
includes questions regarding drug and alcohol use. If the information provided is
affirmative, the nutritionist explains the dangers of substance abuse on the developing
child. If the nutritionist feels there may be an abuse problem, he/she refers the person to an
outside substance abuse agency. They do not get involved in actual substance abuse
counseling. The State agency does not perform an accounting of costs associated with
screening and referring participants. The State agency official stated that this process
takes less than 5 minutes and would be very cumbersome to calculate the expense of 5
minutes of a nutritionist’s time for each woman or child certified. The State agency official
also stated that the screening of participants included questions about drug and alcohol
use prior to Public Law 105-336. Our reviews at four local agencies determined that the
procedures for providing education on the dangers of substance abuse during certification,
and making referrals to an outside agency for substance abuse counseling, as detailed
above, are being carried out. None of the local agencies identified any additional costs to
the WIC Program associated with these procedures.




USDA/OIG-A/27004-0004-Ch                                                            Page 11
          EXHIBIT A – SUMMARY OF MONETARY RESULTS



FINDING
                  DESCRIPTION               AMOUNT          CATEGORY
  NO.
          Unspent funds from prior fiscal              Questioned Costs,
   2                                        $283,638
          years not returned                           Recovery Recommended




USDA/OIG-A/27004-0004-Ch                                             Page 12
EXHIBIT B – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27004-0004-Ch                        Page 13
USDA/OIG-A/27004-0004-Ch   Page 14
